U.S. Small Business Administration
     Office Inspector General                           Memorandum
    To:    Ana Ma                                                     Date:   April 30, 2009
           Chief of Staff
  From:    Debra S. Ritt /s/ Original Signed

           Assistant Inspector General for Auditing 


Subject:   Key Unresolved OIG Audit Recommendations in Program Areas Funded by the
           American Recovery and Reinvestment Act and Related Activities Needed to
           Safeguard Funds (Report No. ROM-09-1)

           Under the American Recovery and Reinvestment Act of 2009 (Recovery Act),
           the Small Business Administration (SBA) will receive $730 million to expand
           the Agency’s lending and investment programs and to create new ones that will
           aid small business owners and revitalize the secondary market for SBA-
           guaranteed loans. To reduce the risks associated with the extraordinary level
           of Recovery Act funding, the Office of Management and Budget (OMB) has
           directed agencies to address weaknesses or deficiencies disclosed by prior
           audits and investigations in program areas under which Recovery Act funds are
           authorized. Where recommended final actions have not been completed,
           agencies are to expedite or explain why such actions cannot or should not be
           taken in the administration of Recovery Act programs in the Agency’s risk
           mitigation plan.

           To aid SBA in this effort, we have identified unresolved audit
           recommendations from reports we have issued that address weaknesses or
           deficiencies in (1) programs directly impacted by the Recovery Act, and (2)
           operational support processes that will impact the disbursement and financial
           reporting of Recovery Act funds. Final actions are overdue for 10 of the 29
           recommendations. Others either did not have a management decision or had
           identified final actions that should be expedited due to the associated risks.
           While the Agency is responsible for determining when recommendations can
           be closed, and the Agency closed 2 of the 10 overdue recommendations, our
           review found that the problems identified were not corrected. Therefore, we
           are including those two recommendations in this memorandum. The
           recommendations address actions that are needed to:
                                                                                     2



       •	 strengthen oversight of 7(a) lenders;
       •	 identify and recover improper payments;
       •	 develop procedures and performance measures for the Microloan
          program;
       •	 enhance information technology (IT) systems used to monitor and
          manage loan activity; and
       •	 improve contract award and administration.

STRENTHENING OVERSIGHT OF 7(A) LENDERS

Prior audits and investigations have identified material deficiencies in SBA’s
oversight of lenders participating in the 7(a) Loan Guaranty program. The 7(a)
program is SBA’s largest lending program and the principal vehicle for providing
small businesses with access to credit that cannot be obtained elsewhere. The
Recovery Act authorizes $375 million in funding to temporarily reduce or
eliminate fees and increase 7(a) loan guaranties to up to 90 percent. Because the
higher guaranties reduce lender risk, which may lead to poor underwriting, a
greater potential will exist for losses and fraud.

Excerpted below are audit findings and unresolved recommendations from three
reports that are aimed at correcting deficiencies in how (1) SBA monitors lenders,
(2) delegates authority to lenders to originate, service, and liquidate loans, and (3)
implements enforcement actions to correct unacceptable lender performance.

       •	 SBA's Use of the Loan and Lender Monitoring System (OIG Report
          No. 7-21, May 2007). We reported that SBA conducted on-site reviews
          of lenders with guaranteed loan portfolios of $10 million or more, but
          did not review smaller lenders with high-risk ratings. We also reported
          that SBA had not developed comprehensive policies establishing how
          lender risk ratings generated by its Loan and Lender Monitoring
          System would be used to manage lender performance. SBA agreed, but
          has not completed action to:

          •	 Develop an on-site review plan or agreed-upon-procedures for all
             high-risk 7(a) lenders with guaranteed loan portfolios in excess of $4
             million.
          •	 Implement comprehensive policies and procedures that define:
             acceptable lender performance and risk tolerance levels,
             enforcement actions that will be taken when risk tolerance limits are
             violated, and how lender risk data will be incorporated into agency-
             wide oversight activities and credit models.
                                                                            3


•	 Oversight of SBA Supervised Lenders (OIG Report No. 8-12, May
   2008). The audit examined SBA’s oversight of its supervised lenders.
   At the time of the audit there were eight lenders that had loan portfolios
   in excess of $100 million and were considered to be among SBA’s
   largest lenders. As of September 2007, SBA supervised lenders had a
   combined portfolio of $5.6 billion, which represented about 18 percent
   of SBA’s total 7(a) loan portfolio. These lenders presented a higher risk
   of loss than other 7(a) lenders because they were not regulated by other
   Federal agencies. We reported that even though these lenders had
   recurring performance and compliance issues, SBA continued to renew
   and expand their delegated authorities, allowing them to operate with
   minimum oversight, and did not take enforcement actions to correct
   lender performance. We also reported that SBA did not conduct timely
   reviews of the lenders’ defaulted loans, properly scope onsite
   examinations or schedule them to coincide with delegated authority
   decisions, or consistently require corrective action plans for problem
   lenders. While the Agency has begun to address these issues, it has not
   taken final action to:
   •	 Establish risk mitigation goals applicable to the 7(a) program and
      lending portfolio, and performance measures to indicate the progress
      in achieving the goals.
   •	 Develop standard operating procedures that will establish a
      hierarchy of enforcement actions addressing when and under what
      circumstances specific enforcement actions will be implemented,
      and require that any deviations from the procedures be justified in
      writing.
   •	 Issue guidance requiring that onsite examinations be conducted no
      earlier than 90 days prior to the delegated lending authority renewal
      period; and that lender compliance be determined based on a review
      of a statistical sample of loans.
   •	 Develop guidance addressing when corrective action plans should be
      required and ensure that the plans include performance goals and
      milestones to be achieved by the lenders.
   •	 Revise SOP 50 10 to include specific criteria for renewals of
      delegated lending authorities that addresses the normal 24-month
      renewal periods, any abbreviated renewal periods, and performance
      benchmarks used in the process.
                                                                                  4


      •	 Audit of SBA’s FY 2007 Financial Statements – Management Letter
         (OIG Report No. 8-06, December 2007). We reported that SBA did not
         properly or timely follow-up with lenders on the liquidation of loans
         eligible for charge-off, potentially resulting in uncollectible loans
         remaining on SBA’s financial statements as a receivable. We found that
         lenders were not providing the required 180-day liquidation status
         reports, which delayed liquidation actions on loans. The Agency agreed
         to address this issue, but has not taken final action to:
          •	 Implement procedures to evaluate, on a scheduled time frame,
             lenders who are consistently delinquent in providing reports and
             documentation to SBA, and consider taking actions against those
             lenders.

IDENTIFYING AND RECOVERING IMPROPER PAYMENTS

A number of audits over the last several years have been critical of the Agency’s
ability to identify and collect improper payments of loan guaranties when lenders
failed to comply with SBA regulations or did not follow prudent lending practices.
We found that SBA’s purchase reviews and loan liquidation processes did not
adequately identify improper payments. Chief among the factors that contributed
to inadequate loan reviews was the lack of management emphasis on oversight
based on the placement of these functions under the Office of Financial Assistance
(OFA), whose goal of increasing the volume of loans conflicted with holding
lenders accountable for unnecessary Agency losses.

During recent audit follow-up efforts related to the recovery of improper
payments, we noted that SBA did not timely recover all identified improper
payments or to take appropriate actions to mitigate further losses. For example, in
May 2003, SBA agreed to recover $630,224. According to an Office of General
Counsel opinion issued in December 2008, we learned that recovery was no longer
feasible because SBA did not pursue recovery within the statute of limitations for
recovery. Currently, $4.2 million in improper payments from recent audits have
not been recovered. Increases in loan volumes and reduced lender risk under the
Recovery Act are expected to lead to higher levels of improper payments. These
improper payments and demands for greater accountability over Recovery funds
will require that SBA prudently manage 7(a) program losses by taking appropriate
action to repair and deny loan guaranties due to lender noncompliance.

To increase management emphasis on improper payments, SBA moved oversight
of the guaranty purchase and loan liquidation function to a newly established
Office of Financial Program Operations within OCA. The following audit report
was issued in January 2009 and final actions on the recommendations are not yet
                                                                                   5


due. However, to strengthen Agency efforts to identify and recover improper
payments, SBA needs to expedite final actions on the following recommendations.

      •	 Audit of the Liquidation Process at the National Guaranty Purchase
         Center (OIG Report No. 9-08, January 2009). The audit identified $4
         million of improper payments and uncollected amounts resulting from
         lender noncompliance that were not addressed during purchase or
         liquidation. Inadequate contractor training and supervision largely
         contributed to the Agency’s inability to properly identify lender
         compliance. The most common loan issues were related to unsupported
         sales of collateral, acceptance of inadequate offers in compromise, and
         inappropriate repair decisions regarding collateral. The Agency agreed
         to address these issues, but has not taken final action to:
          •	 Direct the Center to ensure that charge-off reviews are properly
             supervised and that all required documentation is obtained from
             lenders.
          •	 Revise liquidation recovery rates in SOP 50 51 (2) to reflect the
             forced sale liquidation values related to the various types of
             collateral used to secure SBA loans.

          •	 Perform periodic reviews of non-purchased loans in liquidation to
             ensure that they are removed from the portfolio when appropriate
             and their outstanding balances are correct.

DEVELOPING PROCEDURES AND PERFORMANCE MEASURES
FOR THE MICROLOAN PROGRAM

The Recovery Act authorizes $24 million for marketing, management, and
technical assistance activities under SBA’s Microloan program and $6 million for
new loans. To better ensure the productive use of these funds, SBA will need to
address recommendations from a prior OIG report that identified significant
internal control weaknesses in the administration of the Microloan program. The
Agency also needs to establish program policy and procedures to consistently
implement the Microloan program and to meet the expectations of transparency
and accountability under the Recovery Act.

      •	 Microloan Program: Moving Toward Performance Management (OIG
         Report No. 3-26, May 2003). We reported that oversight activities
         conducted by SBA district offices significantly varied as the program
         operated without a set of Standard Operating Procedures. Also,
         strategies for the outreach and marketing of microloans by district
                                                                                  6


          offices, and internal control plans to monitor the number of
          Intermediaries and to review non-performing lenders had not been
          developed. Employees, instead, must rely on unofficial guidance and
          policy statements, which have been communicated through letters and
          memoranda. We also reported that SBA could not effectively evaluate
          the performance of the program beyond microloan volume because the
          Agency did not collect the appropriate information to develop outcome-
          based measures. In order to address these issues, SBA agreed, but has
          not taken, final action to:
          •	 Ensure the development of a comprehensive Microloan Program
             SOP and a systematic approach for the official dissemination of
             guidance and information that can be routinely revised or updated as
             appropriate.
          •	 Ensure that program goals are set and outcome-oriented data, such as
             information on business status at the time the microloan is paid in
             full or written off and other data related to the program’s legislative
             and SBA’s strategic objectives, is required of all program
             participants.

ENHANCING INFORMATION TECHNOLOGY SYSTEMS NEEDED
TO MONITOR AND MANAGE LOAN ACTIVITY

Prior audits have identified weaknesses in SBA systems used to monitor and
manage loan activity, to include (1) inaccurate lender reporting of loan
information; (2) inadequate system functionality to effectively manage loan status;
and (3) insufficient controls for modifying system enhancements. These
weaknesses could impact SBA’s ability to adequately and timely manage increases
in lending activity and default rates expected under the Recovery Act.

The Agency needs to complete final action on the following recommendations:

      •	 Loan Classifications and Overpayments on Secondary Market Loans (OIG
         Report No. 8-09, March 2008). The audit identified weaknesses in the
         1502 Reporting Process and the Loan Accounting System (LAS), which
         the Agency uses to collect data and monitor loan activity for all 7(a)
         loans. We reported that LAS misclassified some loans as current, even
         if they were past due. We found that SBA’s reliance on the next
         installment due dates reported by lenders was the major reason why
         loans were inaccurately classified. These dates should not be relied
         upon as they can easily be misreported based on partial loan payments
         and can be improperly altered by lenders without approval from SBA.
         If loan currency data is not accurate, complete, or timely, SBA cannot
                                                                              7


   effectively manage the risks associated with the loan portfolio. We also
   reported that LAS does not have the capability to identify loans with no
   principal reductions for 60 days or more, further hampering SBA’s
   ability to accurately classify loan currency. SBA did not agree to
   address the deficiencies noted, but needs to implement:

   •	 Procedures for classifying loans in the Loan Accounting System to
      ensure that loan currency is not solely based on the next installment
      due date, and that data from monthly default reports and principal
      payment information is also considered.
   •	 Additional actions to ensure lenders comply with the requirements
      for reporting next installment due dates on 1502 reports to ensure
      dates are (1) only rolled forward when a full loan payment is
      received, and (2) left as past due if a payment is missed or only a
      partial payment is made.
   •	 A mechanism to identify loans with no principal reduction for 60
      days or more, classifying these loans as past due, and regularly
      monitor them in accordance with the Secondary Participation
      Guaranty Agreement (Form 1086).

•	 Audit of SBA’s FY 2008 Financial Statement (OIG Report No. 9-03,
   November 2008 and 9-05, December 2008). The audit identified
   inadequate software change controls in several financial applications
   integral to implementing new SBA loan programs and meeting financial
   reporting requirements of the Recovery Act. Software change controls
   are required to ensure that modifications to existing IT systems do not
   compromise security controls to prevent processing irregularities or
   malicious code from being introduced into the IT environment. We
   reported that several software changes were either not tested or
   approved for LAS and the Electronic Transaction System (E-TRAN)
   used to process loan applications. In order to control system
   modifications that will enable SBA to process and report on Recovery
   Act loan programs, the Agency agreed to, but has not yet completed,
   actions to:
   •	 Consistently document software change testing results and approvals
      for all of its critical financial systems and its local and wide-area
      networks.
   •	 Monitor all changes to critical financial systems, such as payment
      systems, and develop comprehensive procedures to test software
      updates.
                                                                                   8



      •	 Audit of the Liquidation Process at the National Guaranty Purchase
         Center (OIG Report No. 9-08, January 2009). This audit, which was
         previously discussed, also disclosed that loans in liquidation were not
         properly monitored or managed because the National Purchase
         Guaranty Center lacked an automated system to alert managers of
         liquidation actions needed on loans. The Agency agreed that an
         automated system was needed, but did not take final action on the
         following recommendation because it believes such a capability will be
         provided by the Loan Management and Accounting System (LMAS)
         that is currently under development. However, because the LMAS
         project is currently in the planning phase and is not expected to be
         completed until 2012, we believe the Agency will need to take interim
         steps to obtain the information needed to manage its liquidation
         portfolio. Therefore, the audit recommendation is still relevant, and
         while not overdue, expedited final action is needed to:

          •	 Further enhance the Center’s newly designed portfolio management
             system to include the appropriate controls and ensure the appropriate
             resources are assigned to address loans needing action.

IMPROVING CONTRACT/GRANT AWARD AND
ADMINISTRATION

Prior audits have demonstrated problems with the award, monitoring, and close
out of SBA contracts and grants, which increases the risk of waste, fraud, and
abuse. While the Agency plans to address the identified weaknesses by revising
Standard Operating Procedure (SOP) 00 11 1, Small Purchases, Contracts,
Grants, and Cooperative Agreements, the SOP has been under revision for over 10
years and has yet to be published. With contract and grant activities expected to
increase with Recovery Act funding, steps are needed to ensure that such
expenditures guarantee the best value to the Agency and are appropriately
managed and controlled. Excerpted below are audit findings and unresolved
recommendations from a report that addresses deficiencies in how SBA awards
and administers contracts and grants:

      •	 Audit of SBA’s Administration of the Procurement Activities of Asset
         Sale Due Diligence Contracts and Task Orders (OIG Report No. 4-16,
         March 2004). We reported that SBA did not always follow proper
         procurement methods in contracting with small businesses to review
         loan portfolios for SBA asset sales or perform post-award duties in
         accordance with established procedures. We also reported that asset
         sale due diligence procurements did not always benefit small businesses
                                                                           9


because the Agency did not ensure that limits on subcontracting were
adhered to, and that all eligible contractors were solicited in accordance
with GSA procedures. Additionally, we reported that use of the Federal
Supply Schedule to procure due diligence services was not in the SBA’s
best interest and did not ensure SBA received the best value with
regards to cost and quality of services. SBA agreed, but has not
completed action to:
•	 Revise current procedures to require that offerors for 8(a) and small
   business set-aside contracts and set-aside Federal Supply Schedule
   (FSS) contracts clearly support the amount of personnel costs to be
   subcontracted.
•	 Ensure the amount of subcontracting is reviewed and documented in
   the contract file for 8(a) and small business set-aside contracts and
   task orders to small business set-aside FSS contracts.
•	 Develop and implement procedures to monitor contractor
   compliance with the 50-percent rule on subcontracting, when
   applicable.
•	 Require FSS contractors classified as small businesses to certify
   their size for FSS task orders exceeding $500,000 to ensure the
   contractors fit within applicable size standards.
•	 Ensure all sole source requirements of the Federal Acquisition
   Regulations (FAR) are complied with when only one contractor is
   solicited.
•	 Ensure contracting officials provide all potential offerors with any
   contractor questions and respective SBA answers that clarify
   ambiguities in the solicitation or contain information necessary for
   the preparation of proposals in accordance with the FAR and
   Standard Operating Procedure 00 11 1.
•	 Develop and implement planning procedures in accordance with
   FAR Part 7 and issue a procedural notice to ensure that SBA
   program officials are knowledgeable of procurement planning
   requirements.
•	 Finalize SOP 00 11 2 as soon as possible, incorporate policies to
   address the outstanding items described above, and ensure future
   directives are cleared and issued within reasonable time frames.
•	 Ensure contracting officials are reviewing the GSA approved price
   lists when issuing task orders to FSS contracts to ensure SBA is not
   being overcharged and that ordered items are on the FSS.
